Joos
|

@QCKLE

; E-Mail Address:
Legal Bricfs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1120

MELISSA BELGAU, et al.,
Petitioners,
v.
JAY INSLEE,
Governor of Washington, et al...
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE MACKINAC CENTER FOR PUBLIC POLICY IN SUPPORT OF PETITIONERS in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 5991 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 18th day of March, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

 

 

My Comm. Exp. September 5, 2023

Affiant 40771

GENERAL NOTARY-State of Nebraska
f RENEE J. GOSS Kone 9. er Qudeaw- A. Chk

Notary Public
